         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report



       EPA Should Improve Its
       Oversight of Long-Term
       Monitoring at Wheeling Disposal
       Superfund Site in Missouri

       Report No. 11-P-0034

       December 20, 2010
Report Contributors:	                             Carolyn Copper
                                                  Patrick Milligan
                                                  Martha Chang
                                                  Anne Bavuso




Abbreviations

CFR             Code of Federal Regulations
EDB             1,2-Dibromoethane
EPA             U.S. Environmental Protection Agency
mg/L            Milligrams per Liter
NPL             National Priorities List
O&M             Operation and Maintenance
OIG             Office of Inspector General
ROD             Record of Decision
RP              Responsible Party
TDS             Total Dissolved Solids
µg/L            Micrograms per Liter
VOC             Volatile Organic Compound


Cover photo:	     Signage on barbed wire fence surrounding Wheeling Disposal Superfund Site,
                  near Amazonia, Missouri, December 12, 2007. (EPA OIG photo)
                       U.S. Environmental Protection Agency 	                                                11-P-0034
                                                                                                      December 20, 2010
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment

Why We Did This Review
                                  EPA Should Improve Its Oversight of Long-Term
The Office of Inspector           Monitoring at Wheeling Disposal Superfund Site
General is testing long-term
monitoring results at
                                  in Missouri
Superfund sites the U.S.
Environmental Protection          What We Found
Agency (EPA) has deleted
from the National Priorities      Our independent sampling results from the Wheeling Disposal Superfund Site were
List. The Wheeling Disposal       generally consistent with the sampling data that Region 7 has obtained historically.
Superfund Site, located near      However, when the responsible parties reported their annual monitoring results,
Amazonia, Missouri, in EPA        Region 7 inadvertently allowed them to use incorrect and outdated surface water
Region 7, is one of eight sites   standards, and outdated ground water standards. Also, Region 7 did not always
reviewed.                         require the responsible parties’ laboratories to properly analyze some contaminants.
                                  By allowing incorrect standards and analysis methods, the region has limited
Background                        assurance that unsafe levels of contaminants are not migrating offsite and creating
                                  risk to human health and the environment. These issues do not adversely impact the
Wheeling Disposal is a            region’s current protectiveness determination. However, if incorrect and outdated
landfill that received            standards continue to be used, or results are not properly analyzed, the region may
hazardous wastes, including       be unable to detect when excess levels of contaminants migrate offsite.
leather tanning sludges,
pesticides, asbestos,             In a 2009 report, Region 7 should have explained the impact of excess levels of
laboratory wastes, paint          iron and aluminum at sampling locations close to the site boundaries. EPA records
sludges, battery wastes, and      describe the site as a “habitat for wildlife and birds.” However, the region had not
cyanide wastes. The site was      addressed contaminants in the site’s surface water that can pose risks to ecological
added to the National             receptors. In response to Office of Inspector General inquiries and Agency
Priorities List in 1989 and       guidance, in October 2010, the region completed an ecological risk assessment. The
deleted in 2000 when EPA          risk assessment showed that the remedy is protecting the environment.
determined that cleanup goals
had been achieved.                What We Recommend

                                  We recommend that the Region 7 Administrator ensure accurate surface water and
                                  ground water standards are used to assess conditions at the site; laboratories use the
For further information,
contact our Office of
                                  correct analytic standards; the ecological risk assessment is completed; and excess
Congressional, Public Affairs     levels of iron, aluminum, and any other compounds are controlled at the site.
and Management at                 Region 7 agreed with OIG recommendations and has initiated or completed some
(202) 566-2391.                   actions.
To view the full report,
click on the following link:
www.epa.gov/oig/reports/2011/
20101220-11-P-0034.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                       THE INSPECTOR GENERAL




                                         December 20, 2010

MEMORANDUM

SUBJECT:	               EPA Should Improve Its Oversight of Long-Term Monitoring at
                        Wheeling Disposal Superfund Site in Missouri
                        Report No. 11-P-0034


FROM:                   Arthur A. Elkins, Jr.
                        Inspector General

TO:                     Karl Brooks
                        Region 7 Administrator


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains the findings from our
sampling at the Wheeling Disposal Superfund Site and corrective actions the OIG recommends.
EPA Region 7 concurred with and provided comments on the recommendations of the draft
report. This report represents the opinion of the OIG and does not necessarily represent the final
EPA position. Final determinations on matters in this report will be made by EPA managers in
accordance with established resolution procedures.

The estimated cost of this report, calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time, then adding in the contractor costs, is
$654,653.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response will be posted on the OIG’s public website, along
with our comments on your response. Your response should be provided in an Adobe PDF file
that complies with the accessibility requirements of section 508 of the Rehabilitation Act of
1973, as amended. If your response contains data that you do not want to be released to the
public, you should identify the data for redaction. You should include a corrective action plan for
agreed upon actions, including milestone dates. We have no objections to the further release of
this report to the public. This report will be available at http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact Wade Najjum,
Assistant Inspector General, at (202) 566-0832 or najjum.wade@epa.gov; or Carolyn Copper,
Director for Program Evaluation, Hazardous Waste Issues, at (202) 566-0829 or
copper.carolyn@epa.gov.
EPA Should Improve Its Oversight of Long-Term                                                                             11-P-0034
Monitoring at Wheeling Disposal Superfund Site in Missouri



                                   Table of Contents 


Chapters 

   1     Introduction ........................................................................................................      1         


                 Purpose .......................................................................................................    1             

                 Background .................................................................................................       1             

                 Noteworthy Achievements ..........................................................................                 2             

                 Scope and Methodology..............................................................................                2             


   2     Incorrect Standards Used and Contaminants Improperly Analyzed ............                                                 4


                 Region 7 Inadvertently Allowed Use of Some Incorrect Standards.............                                        4

                 Some Contaminants Improperly Analyzed ..................................................                           5

                 Five-Year Review Did Not Explain High Levels of Metals in 

                       Ground Water ....................................................................................            6

                 Ecological Risk Assessment Needed ..........................................................                       6

                 Conclusion...................................................................................................      7             

                 Recommendations ......................................................................................             7             

                 EPA Region 7 Response to Draft Report and OIG Evaluation....................                                       8


   Status of Recommendations and Potential Monetary Benefits..............................                                          9




Appendices 

   A     Details on Sampling Methodology and Data Analyses...................................                                      10     


   B     Compounds With Incorrect Standards.............................................................                           13     


   C     EPA Region 7 Response to Draft Report ........................................................                            15     


   D     Distribution ........................................................................................................     17 

                                  Chapter 1

                                   Introduction
Purpose
            The Office of Inspector General (OIG) of the U.S. Environmental Protection
            Agency (EPA) is evaluating long-term monitoring at Superfund sites deleted from
            the National Priorities List (NPL). This evaluation is to ensure that EPA has valid
            and reliable data on the conditions of these sites. Wheeling Disposal Superfund
            Site near Amazonia, Missouri, is one of eight sites reviewed. We collected ground
            water and surface water samples and compared our results to historical results
            reported by Region 7. We also compared results to applicable federal and state
            standards and conducted a site inspection.

Background

            Wheeling Disposal Superfund Site operated from the 1970s through 1986.
            Wastes disposed at the site include leather tanning sludges, pesticides, asbestos,
            laboratory wastes, building debris, paint sludges, battery wastes, cyanide wastes,
            and miscellaneous crushed drums. The site’s 20-acre central disposal area sits in
            the middle of the 200-acre site. Surface runoff flows to tributaries and creeks
            north and south of the site and eventually discharges into the Missouri River
            2 miles south of the site.

            In 1989, EPA listed the site on the Superfund NPL. A consent decree between
            EPA and the responsible parties (RPs) established the remediation goals and
            cleanup objectives for the site. As defined in the site’s record of decision (ROD),
            the remediation objective was to eliminate current and prevent future
            unacceptable exposures to contaminated ground water, surface water, surface
            soils and sediments, and subsurface soils. According to the ROD, the performance
            criteria will be used to define whether the remedy will continue to be protective of
            human health and the environment over time. If the monitoring program indicates
            exceedance of the performance criteria, additional remedial activities may be
            required. The site remedy included upgrading the landfill cover and conducting
            long-term monitoring of ground water and surface water. Also, the remedy called
            for implementing site maintenance activities, installing security signs, and closing
            some onsite wells. In 1994, the RPs completed the remedial actions to eliminate
            unacceptable exposures. The site then transitioned to the operation and
            maintenance (O&M), or long-term monitoring phase.

            According to the consent decree, O&M activities will be conducted by the RPs.
            The purpose of O&M is to conduct such activities as site inspection, fence
            maintenance, cap or cover repair, and sampling. The RPs’ 1993 O&M plan
            provided the sampling and site maintenance activities and frequencies.


11-P-0034                                                                                        1
            Using data and information obtained from long-term monitoring activities at least
            once every 5 years, Region 7 must evaluate the site to determine if it is protective
            of human health and the environment. The results of this determination are reported
            in a publicly released Five-Year Review report. The region completed Five-Year
            Reviews for the site in 1999, 2004, and 2009. EPA’s Five-Year Review guidance
            establishes that exposure assumptions, toxicity data, cleanup levels, and remedial
            action objectives used at the time of the remedy selection should be evaluated to
            determine whether assumptions are still valid. The 1999 and 2004 reviews
            concluded that the remedy continued to protect human health and the environment.
            However, the 2009 review only found the remedy to be protective of human health
            and deferred making a statement on ecological protectiveness until an ecological
            risk assessment under current guidance was performed.

Noteworthy Achievements
            Four landfill caps were constructed to cover the site’s industrial waste disposal
            areas. There were nine waste disposal areas including solid waste trenches, liquid
            waste trenches, evaporation ponds, a farm chemicals area, tannery waste disposal
            areas, and a rinsed container area. Region 7 imposed deed restrictions to prevent
            farming on certain onsite areas, and prohibited the use of ground water for the
            entire 200-acre site. A long-term monitoring program was developed to monitor
            the effectiveness of the remedy in preventing offsite migration of contaminated
            ground water and surface water. As part of its long-term monitoring program,
            Region 7 is conducting an ecological risk assessment to determine whether the
            remedy continues to be protective of the environment.

Scope and Methodology

            We conducted this performance evaluation in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the evaluation to obtain sufficient, appropriate evidence to provide a reasonable
            basis for our findings and conclusions based on our evaluation objectives. We
            believe that the evidence obtained provides a reasonable basis for our findings and
            conclusions based on our evaluation objectives.

            We conducted our work in two phases. In the first phase, from November 2007 to
            August 2008, we conducted a site visit, took ground water samples, and performed
            data validation on the sample results. In the second phase, from March 2009 to
            June 2010, we analyzed and compared OIG’s and Region 7’s sampling data.

            We reviewed relevant guidance documents and key decision documents, such as
            the 2001 Five-Year Review Guidance, consent decree, ROD, O&M plan, and
            Five-Year Reviews. We interviewed the site project managers and the program
            manager from both Region 7 and the Missouri Department of Natural Resources.
            Our ground water and surface water sampling methodology and data analyses are
            detailed in Appendix A.


11-P-0034                                                                                    2
            A draft of this report was sent to the Region 7 Administrator for official comment.
            Region 7’s comments on the draft report are in Appendix C.




11-P-0034                                                                                    3
                                  Chapter 2

        Incorrect Standards Used and Contaminants 

                    Improperly Analyzed

            Region 7 managers said they inadvertently allowed the RPs to use both incorrect
            and outdated surface water standards and outdated ground water standards when
            analyzing contaminant levels after the site remedy was completed. Region 7 also
            has not taken action to ensure RPs’ laboratories always use reporting limits that
            analyze sampling results down to the contaminant standard. By using the wrong
            standards and not analyzing results correctly, the region limits its ability to
            identify excess or unsafe levels of contaminants that could potentially migrate
            offsite. In the 2009 Five-Year Review, Region 7 did not explain whether site
            protectiveness was impacted by results that showed iron and aluminum exceeded
            standards at sampling locations used to detect potential offsite migration. Further,
            in response to OIG inquiries and Agency guidance, the region decided to conduct
            an environmental assessment to ensure the remedy is protective of the
            environment. The risk assessment will also enable the region to ensure current
            and appropriate standards are being used. Region 7 needs to improve its oversight
            of the RPs’ long-term monitoring activities to ensure protection of human health
            and the environment into the future.

Region 7 Inadvertently Allowed Use of Some Incorrect Standards
            The RPs’ labs have been inadvertently using some incorrect surface water
            standards when analyzing sampling results at Wheeling. This occurred because
            Region 7 did not detect and correct the RPs using the wrong regulation in the
            annual monitoring reports they submitted to Region 7. The monitoring reports
            inform Region 7 of yearly contaminant levels at the site. Region 7’s oversight did
            not detect this error even though the consent decree and ROD cite the correct
            regulation, which is found in section 304(a) of the Clean Water Act. Instead, in
            analyzing the sampling results in the annual monitoring reports, the RPs
            inadvertently used some incorrect standards found in 40 Code of Federal
            Regulations (CFR) 131.36. The CFR is not the applicable regulation for citing
            surface water standards for Wheeling because the CFR does not apply to the State
            of Missouri, where the site is located. Region 7 needs to ensure that the RPs
            measure sample results against the correct standards.

            OIG’s review of the standards used to monitor surface water and ground water
            found that 29 standards for surface water contaminants and 12 for ground water
            contaminants were not updated when applicable standards were applied.
            Appendix B lists the 41 contaminants along with their correct standards. Twenty-
            five surface water standards and 7 ground water standards became more stringent
            through updates. Four surface water and five ground water standards became less
            stringent through updates. By inadvertently allowing incorrect standards,


11-P-0034                                                                                      4
                   Region 7 may not have detected unacceptable levels of these contaminants in the
                   site’s surface and ground water. In addition, where updated standards are now less
                   stringent than those being used at the site, EPA could incorrectly identify
                   unacceptable levels of contaminants. We found two contaminants
                   (bromodichloromethane and tetrachloroethylene) exceeding the updated, but not
                   the original, standards Region 7 is using. These exceedances were found at
                   monitoring locations near the center of the site. Region 7 stated in the 2009
                   Five-Year Review that it was not concerned with exceedances at wells positioned
                   adjacent to the source area. As a result, site protectiveness decisions would not be
                   altered due to these 2 exceedances. However, if exceedances of these two
                   contaminants were to occur at other monitoring locations used to detect offsite
                   migration of contaminants, Region 7 would not be able to detect these
                   exceedances because it used outdated standards.

Some Contaminants Improperly Analyzed
                   Region 7 has not taken action in the past to ensure RPs’ labs always achieve a
                   reporting limit that is at or below the contaminant standard. Reporting limits are
                   the minimum concentrations of a compound or contaminant that can be measured
                   by the lab with certainty. The O&M plan provides a list of contaminants that are
                   monitored at the site and their respective reporting limits. These reporting limits
                   generally have been set low enough to assess whether the lab is measuring down
                   to each contaminant’s standard. However, Region 7 has not always ensured that
                   the labs analyzed down to the standard.

                   With the exception of the contaminants shown in Table 1, the RPs’ laboratories
                   achieved the reporting limits at or below the standard for site contaminants.
                   Table 1 shows the four contaminants we found that have reporting limits above
                   the site’s ground water standards. The table also includes the six contaminants
                   that have reporting limits above the site’s surface water standards.
      Table 1: 2007 reporting limits above the site’s standards1
                             Ground water                                               Surface water
                                                        2007                                                      2007
           Contaminants                               reporting                                                 reporting
             monitored                Standard          limit                Analyte             Standard         limit
       Atrazine (µg/L)                        3               10     Arsenic (mg/L)                0.00014          0.005
       Antimony (mg/L)                    0.006            0.05      Mercury (mg/L)                0.00015         0.0002
       Thallium (mg/L)                    0.002            0.01      Silver (mg/L)                  0.0035          0.005
       1,2-Dibromoethane
                                             0.05               1    Thallium (mg/L)                 0.0063            0.01
       (EDB) (µg/L)
                                                                     Selenium (mg/L)                  0.005            0.01
                                                                     1,2-Dibromoethane
                                                                                                        0.05                  1
                                                                     (EDB) (µg/L)
      Source: Region 7’s annual monitoring reports.
      µg/L: micrograms per liter                 mg/L: milligrams per liter
      1	
           We used the stricter of the federal criteria for "Human Health Based on Consumption of Organisms Only" under
           Section 304(a) of the Clean Water Act (33 USC 1314(a)) or the Missouri water quality standards for protection of
           aquatic life under 10 CSR 20-7.031.



11-P-0034                                                                                                                         5
            When the labs’ report results for these contaminants fall between the standard and
            the reporting limit, Region 7 has limited assurance of the actual contaminant
            concentrations or whether exceedance of a standard has occurred. For example,
            the ground water standard for atrazine is 3 µg/L, while the reporting limit is
            10 µg/L. If atrazine were detected in a sample at 7 µg/L, it would exceed the
            standard. However, the lab’s use of the wrong reporting limits would cause it to
            fail to report this as an exceedance, because the lab cannot guarantee the certainty
            of the result below the reporting limit of µg/L.

Five-Year Review Did Not Explain High Levels of Metals in
Ground Water
            In the 2009 Five-Year Review, Region 7 did not explain or address standard
            exceedances for iron and aluminum at sampling locations close to the site
            boundaries. Likewise, the region’s 2004 review did not address exceedances for
            iron and aluminum. From 1999 through 2007, iron exceeded the standard in four
            out of nine sampling events, and aluminum exceeded the standard in four out of
            eight sampling events. The review should demonstrate that the remedy continues to
            protect human health and the environment and an explanation of the metals’
            exceedances should have appeared in the review. Our analysis shows that iron was
            detected at levels within the background concentrations. This suggests that the
            levels of iron may be naturally occurring. However, the region’s 2004 Five-Year
            Review did not offer any explanation regarding the iron exceedances. In half of the
            samples taken to check for aluminum, the metal exceeded State of Missouri surface
            water standards at a sampling location that is intended to measure contaminants as
            they migrate offsite. In the 2009 Five-Year Review, Region 7 did not disclose these
            aluminum exceedances or address the likelihood of unsafe levels of aluminum
            migrating offsite. If aluminum is migrating offsite at levels above the standard, it
            may negatively impact the region’s current protectiveness determination.

Ecological Risk Assessment Needed
            According to an EPA document, the entire 200-acre Wheeling site is a “habitat for
            wildlife and birds and is also a recreational hunting and fishing area.” During the
            site cleanup, the current site owner planted native wild grasses and other foliage
            that would attract birds and wildlife. During our onsite sampling event, we saw
            signs of wildlife and the site is used for hunting wildlife. Elevated concentrations
            of volatile organic compounds (VOCs) in onsite surface waters are shown in the
            historical sampling results and were also found in OIG’s independent sampling.
            However, the current site ROD does not address the protectiveness of onsite
            surface waters for ecological receptors, such as birds and wildlife.

            Given the elevated concentrations of VOCs in site surface waters and the
            designation of the site as a wildlife habitat, we asked Region 7 whether the site was
            still protective of the environment. The region responded that past risk assessments
            have found the remedy to be protective of the environment and the region believes


11-P-0034                                                                                      6
                 this is still the case, because site conditions have not changed. However, the region
                 believes that an environmental assessment under current Agency guidance is
                 needed to verify that the remedy is protective of the environment.

                 In its 2009 Five-Year Review, Region 7 stated that the environmental assessment
                 concluded that a screening level ecological risk assessment should be conducted
                 to ensure the remedy is protecting the environment.1 The 2009 review further
                 concluded that the site is primarily ecological in nature. Therefore, although the
                 contamination may be contained onsite (thereby preventing human health
                 exposure), the potential onsite impacts of the surface water on plants and animals
                 may not have been fully addressed. In its response to the draft report, Region 7
                 responded that it completed a Screening Level Ecological Risk Assessment for
                 the Wheeling Disposal site on October 13, 2010. The region stated that the result
                 of the assessment was that the remedy for the site is protective of the
                 environment, and no changes to the remedy are necessary. Therefore, the region
                 determined that a further ecological risk assessment is not necessary.

Conclusion
                 When the RPs reported their annual monitoring results, Region 7 inadvertently
                 allowed the RPs to use some incorrect and outdated standards. The region
                 acknowledged the use of outdated and incorrect standards to determine whether
                 the remedy was protecting human health and the environment. Likewise, we
                 found laboratories not analyzing results down to the reporting limits that were as
                 low as the applicable standard, and the region used the lab results as part of its
                 protectiveness determination. None of the problems we found had an adverse
                 impact on the region’s protectiveness determination for human health. However,
                 if incorrect standards continue to be used, or results are not properly analyzed,
                 excess levels of contaminants could migrate offsite without Region 7’s
                 knowledge. Region 7 must improve monitoring and oversight activities at
                 Wheeling Disposal to assure that the site is protective for all current and future
                 uses, including its primary “ecological use.”

Recommendations
                 We recommend that the Region 7 Administrator:

                     1.	 Ensure updated and correct standards for surface water and ground water
                         are used to assess conditions at the site and that these corrected standards
                         are listed in all relevant site documents.

                     2.	 Require that the reporting limits for all analyses are at or below the
                         applicable standard to ensure that all contamination above the standard is
                         properly analyzed by the laboratory.
1
 Current Risk Assessment guidance for the environment is entitled Ecological Risk Assessment Guidance for
Superfund: Process for Designing and Conducting Ecological Risk Assessments (EPA 540-R-97-006, 1997).


11-P-0034                                                                                                   7
               3.	 Document in an addendum to the 2009 Five-Year Review that iron,
                   aluminum, and any other compounds exceeding applicable standards are
                   controlled at the site.

               4. 	 Complete an ecological risk assessment to determine whether changes to
                    the remedy are necessary and, if so, amend or generate new site
                    documents, including the ROD, to ensure the site is protective of the
                    environment. Issue an addendum to the 2009 Five-Year Review to include
                    the results of the ecological risk assessment.

EPA Region 7 Response to Draft Report and OIG Evaluation
            Region 7 agreed with all four OIG findings and recommendations. Where
            appropriate, we made changes to the report based on Region 7’s comments.

            For recommendation 1, Region 7 has made arrangements with the Wheeling
            Responsible Party group to perform a review of performance standards to ensure
            that the most current and appropriate standards are used in the annual monitoring
            program for the Wheeling Disposal site. This review is planned for early 2011 and
            will be completed by June 30, 2011. This recommendation is open with agreed-to
            actions pending. In its 90-day response to this report, the region should confirm
            the completion of this recommendation or update OIG on the status.

            For recommendation 2, Region 7 responded that it will require that the reporting
            limits for all analyses are at or below the applicable standards, and that this task
            will be performed as part of the performance standards review scheduled for early
            2011 and will be completed by June 30, 2011. This recommendation is open with
            agreed-to actions pending. In its 90-day response to this report, the region should
            confirm the completion of this recommendation or update OIG on the status.

            For recommendation 3, Region 7 agreed to issue by September 2011 an
            addendum to the 2009 Five-Year Review to document that iron, aluminum, and
            any other compounds exceeding applicable standards are controlled at the site.
            This recommendation is open with agreed-to actions pending. In its 90-day
            response to this report, the Region should confirm the completion of this
            recommendation or update OIG on the status.

            For recommendation 4, Region 7 stated that it completed the ecological risk
            assessment on October 13, 2010. The region stated that the risk assessment
            showed that the remedy for the site is protective of the environment, and no
            changes to the remedy are necessary. We revised recommendation 4 for Region 7
            to issue an addendum to the 2009 Five-Year Review to include the results of the
            risk assessment. Region 7 managers concurred with the revised recommendation.
            This recommendation is open with agreed-to actions pending. In its 90-day
            response to this report, the region should confirm the completion of this
            recommendation or update OIG on the status.


11-P-0034                                                                                      8
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed-To
    No.      No.                          Subject                            Status1      Action Official          Date      Amount      Amount

     1        7     Ensure updated and correct standards for surface           O       Region 7 Administrator    06/30/11
                    water and ground water are used to assess
                    conditions at the site and that these corrected
                    standards are listed in all relevant site documents.

     2        7     Require that the reporting limits for all analyses are     O       Region 7 Administrator    06/30/11
                    at or below the applicable standard to ensure that
                    all contamination above the standard is properly
                    analyzed by the laboratory.

     3        8     Document in an addendum to the 2009 Five-Year              O       Region 7 Administrator    09/30/11
                    Review that iron, aluminum, and any other
                    compounds exceeding applicable standards are
                    controlled at the site.
     4        8     Complete an ecological risk assessment to                  O       Region 7 Administrator
                    determine whether changes to the remedy are
                    necessary and, if so, amend or generate new site
                    documents, including the ROD, to ensure the site is
                    protective of the environment. Issue an addendum
                    to the 2009 Five-Year Review to include the results
                    of the ecological risk assessment.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0034                                                                                                                                           9
                                                                                   Appendix A

                 Details on Sampling Methodology
                         and Data Analyses

Sampling Methodology
      We acquired a qualified environmental contractor to collect ground water and surface
      water samples and to conduct a limited site inspection in December 2007. The contractor
      collected samples from six onsite ground water monitoring wells and six surface water
      locations. OIG staff members were present to ensure that proper sampling and quality
      assurance protocols were followed. The samples were analyzed for VOCs,
      polychlorinated biphenyls (PCBs), metals (total and dissolved), organochlorine
      pesticides, 1,2-Dibromoethane (EDB), dinoseb, atrazine, and cyanide (total) at a qualified
      laboratory using EPA-approved methods.

Data Analyses
      We analyzed our sampling data from the site to determine whether Region 7 has been
      obtaining valid and reliable data on the conditions at the site. We compared our results to
      historical data spanning back to 1999. OIG sampling results greater than 2 standard
      deviations above the average EPA historical concentrations were considered different.
      Our review did not include a full evaluation of the reasons for these differences. Where
      we observed differences, we compared OIG results to the relevant federal and state
      standards to determine whether OIG’s data had implications for human health or
      environmental protection.

      We also evaluated all OIG results to applicable standards and reviewed their potential
      effect on Region 7’s protectiveness determination for the site. The ROD established
      ground water and surface water cleanup standards for the purpose of determining whether
      the selected remedy will protect human health and the environment. The standards are
      developed and based upon relevant federal and state ground water and surface water
      regulations. Relevant federal and state standards are defined as (1) the Missouri Water
      Quality Standards [10 CSR 20-7.031], (2) the Federal Maximum Contaminant Levels for
      Inorganic and Organics in Drinking Water Supplies, and (3) the Federal Ambient Water
      Quality Standards as defined by the Clean Water Act. The ROD stipulates that, in the
      event that the monitoring program indicates exceedances of the standard, additional
      remedial activities may be required. Our approach and selection of applicable standards
      was consistent with the standards applied by EPA.

      The ROD also established a ground water and surface water monitoring system to
      determine the long term effectiveness of the remedy. The monitoring system was
      intended to provide an early warning before hazardous substances migrate offsite and
      harm human health and the environment. Ground water and surface water samples


11-P-0034                                                                                      10
        collected from various designated “compliance” locations would monitor the offsite
        migration of contaminants. Ground water and surface water cleanup levels must be
        achieved at these compliance points.

        Our results show OIG’s independent sampling and analyses generally confirm Region 7’s
        data at the Wheeling Disposal Superfund Site. Of the 116 compounds analyzed by the
        OIG and by EPA in the past, 5 were different from the region’s historical sampling
        results. The five analytes were manganese, potassium, sodium, total suspended solids,
        and total dissolved solids. These analytes either had no standards or their concentrations
        were detected below the standards. As a result, the OIG determined that these analytes do
        not have adverse implications for site protectiveness.

        OIG also identified 17 other contaminants that exceeded applicable standards (see
        table below). Region 7’s historical monitoring data also identified these exceedances.
        Thirteen of the 17 contaminants were detected at the center of the site near the
        contaminant source. Region 7 stated that elevated contaminant concentrations at the
        center of the site are expected and are not a concern because they do not indicate offsite
        migration. Two of the remaining four contaminants—total dissolved solids and
        manganese—are explained in the table footnote below. The other two contaminants—
        iron and aluminum—are discussed in the Five-Year Review section of the report.

                        Compounds Exceeding Applicable Standards
                                                                                     Original
             Analyzed           Sampling         Compound
                                                                                    applicable
            compound            location           class           OIG result
                                                                                     standard
  1.    1,1-Dichloroethene
                                MW-35 I             VOC                17                7
              ( µg/L )
  2.    1,2-Dibromoethane       MW-35 I             VOC                14              0.05
       (EDB) aka Ethylene
            Dibromide           MW-35 I             VOC               11.6             0.05
              ( µg/L )
  3.    1,2-Dichloroethane
                                MW-35 I             VOC                35                7
              ( µg/L )
  4.        Aluminum
                                 SW-35           Total Metal           1.5             0.75
              (mg/L)
  5.   Carbon Tetrachloride
                                MW-35 I             VOC               2660               5
               (µg/L)
  6.      Chloroform                                                                   5.7
                                MW-35 I             VOC               392
             (µg/L)                                                               (80 THM total)
  7.        cis-1,2­
        Dichloroethene          MW-35 I             VOC               110               70
             (µg/L)
  8. Dichlorodifluorometh
              ane               MW-35 I             VOC               251               170
             (µg/L)
  9.       Dinoseb
                                MW-35 I             VOC                36                7
             (µg/L)




11-P-0034                                                                                          11
                                                                                                Original
             Analyzed               Sampling           Compound
                                                                                               applicable
            compound                location             class              OIG result
                                                                                                standard
  10.                               MW-35 D             Total Metal             1.5                0.3
                                     MW-35 I            Total Metal           0.511                0.3
                                     SW-35              Total Metal             1.7                 1
                Iron
               (mg/L)               MW-32S              Total Metal           0.422                0.3
                                    MW-32S           Dissolved Metal          0.483                0.3
                                    MW-35 D          Dissolved Metal           1.77                0.3
                                     MW-35 I         Dissolved Metal          0.493                0.3
  11.                               MW-35 D             Total Metal            0.57                0.3

            *Manganese               MW-36I             Total Metal            0.45                0.05
              (mg/L)                MW-35 D          Dissolved Metal           0.63                0.3
                                     MW-36I          Dissolved Metal           0.47                0.3
  12.   Methylene Chloride
                                     MW-35 I               VOC                 23.1                 5
              (µg/L)
  13.          Nickel               MW-35 D             Total Metal           0.753             0.1 mg/L
               (mg/L)               MW-35 D          Dissolved Metal            0.8             0.1 mg/L
  14.         Thallium
                                     MW-35 I         Dissolved Metal         0.0063 J
               (mg/L)
  15.                               MW-32S                   _                 1580             0.5 mg/L
         *Total Dissolved           MW-35 D                  _                 1320             0.5 mg/L
              Solids
              (mg/L)                 MW-35 I                 _                 1540             0.5 mg/L
                                     MW-36I                  _                 410              0.5 mg/L
  16.     Trichloroethene
                                     MW-35 I               VOC                 4320               5 µg/L
               (µg/L)
  17.      Vinyl Chloride           MW-35 D                VOC                  5.7               2 µg/L
               (µg/L)                MW-35 I               VOC                 317                2 µg/L
Source: OIG sampling.

* Total dissolved solids do not show as an exceedance when the correct, updated standard is used. Manganese
exceedances may be the result of background levels of the contaminant indicating that these may be naturally
occurring and not originating from historical site activities.




11-P-0034                                                                                                      12
                                                                             Appendix B

                 Compounds With Incorrect Standards
                                             Surface water standard1
              Compound             Original                       Updated
   1,1,2-Trichloroethane (µg/L)       42                            16 3
   1,2-Dichlorobenzene (µg/L)        NA                            1,300 3
   1,2-Dichloroethane (µg/L)          99                            37 3
                                    NA (cis)                      NA (cis)
   1,2-Dichloroethene** (µg/L)
                                   NA (trans)                  10,000 (trans) 3
   1,2-Dichloropropane (µg/L)          NA                             15 3
   Benzene (µg/L)                      NA                             51 3
   Bromodichloromethane (µg/L)         22                             17 3
   Carbon Tetrachloride** (µg/L)       4.4                           1.6 3
   Chlorobenzene (µg/L)                NA                           1,600 3
   Ethylbenzene (µg/L)                 NA                            320 4
   Methylene Chloride** (µg/L)       1,600                           590 3
   Tetrachloroethene (µg/L)           8.85                           3.3 3
   Toluene** (µg/L)                 200,000                        15,000 3
   Trichloroethene** (µg/L)            81                             30 3
   Vinyl Chloride (µg/L)              525                            2.4 3
   Endrin Aldehyde (µg/L)              NA                            0.3 3
   Heptachlor (µg/L)                0.00029                       0.000079 3
   Antimony (mg/L)                     4.3                          0.64 3
   Cadmium (mg/L)                   0.0091                        0.0003 4,6
                                                                 0.089 (III) 4,6
   Chromium (mg/L)                   0.011
                                                                  0.01 (IV) 4
   Copper (mg/L)                     0.019                         0.011 4,6
   Lead (mg/L)                       0.009                         0.003 4,6
   Nickel (mg/L)                     0.16                          0.063 4,6
   Thallium (mg/L)                  0.0063                        0.00047 3
   Silver (mg/L)                    0.0035                        0.0047 4,6
   1,1-Dichloroethene** (µg/L)        3.2                          7,100 3
   Ethylene Dibromide (EDB)
                                     0.05                              NA
   (µg/L)
   Mercury (mg/L)                   0.00015                        0.0005 4
   Zinc (mg/L)                       0.103                         0.142 4,6




11-P-0034                                                                            13
                                                              Ground water standard2
             Compound                                 Original                           Updated
   1,2-Dibromoethane (EDB) (µg/L)                       NA                                 0.05
   1,2-Dichloropropane (µg/L)                            5                                0.52 4
                                                        100                                0.56 4
   Bromodichloromethane (µg/L)
                                                         80                           80 (total THM)
                                                                                           5.7 4
   Chloroform** (µg/L)                                  100
                                                                                      80 (total THM)
   Chloromethane (µg/L)                                  20                                 54
   Methylene Chloride** (µg/L)                           5                                 4.7 4
   Tetrachloroethene (µg/L)                              5                                 0.8 4
   1,1- Dichloroethane** (µg/L)                         340                                 NA
   Acetone (µg/L)                                       260                                 NA
   Dichlorodifluoromethane (µg/L)                       170                               1,000 5
   Naphthalene (µg/L)                                   100                                 NA
   Total Dissolved Solids (mg/L)                        500                                 NA
  Source: Region 7’s annual monitoring reports.



                          Standard became less stringent. 

                          Standard became more stringent. 


    ** Compound is an indicator chemical under the consent decree (per EPA data). 

    1
     We used the stricter of the federal criteria for "Human Health Based on Consumption of Organisms Only"

    under Section 304(a) of the Clean Water Act (33 USC 1314(a)) or the Missouri water quality standards for 

    protection of aquatic life under 10 CSR 20-7.031. 

    2
    Stricter of the federal maximum contaminant levels under the Safe Drinking Water Act or the Missouri 

    Water Quality Standards for drinking water [10 CSR 20-7.031]. 

    3
      Federal standard. 

    4
      State standard. 

    5
      EPA Lifetime Health Advisory, as required by Statement of Work. 

    6
      Hardness assumption of <125. 





11-P-0034                                                                                                        14
                                                                                   Appendix C

             EPA Region 7 Response to Draft Report




MEMORANDUM

SUBJECT:	 EPA Should Improve Its Oversight of Long-Term Monitoring
          at Wheeling Disposal Superfund Site in Missouri
          Report No. 2008-548

FROM:         Karl Brooks
              Regional Administrator

TO:	          Wade Najjum
              Assistant Inspector General
              Office of Program Evaluation

      Thank you for the opportunity to comment on the draft report entitled, “EPA Should
Improve Its Oversight of Long-Term Monitoring at Wheeling Disposal Superfund Site in
Missouri.”

       Region VII offers the following clarification on the Background section of your report.
The report states:

       The 1999, 2004, and 2009 reviews concluded that the remedy continued to
       protect human health and environment. However, the 2009 review also
       concluded that an ecological risk assessment was needed to ensure the remedy
       protects the environment.

        OIG is correct that the 1999 and 2004 reviews found the remedy to be protective of
human health and the environment, but the 2009 review only found the remedy to be protective
of human health. The 2009 review deferred making a statement on ecological protectiveness
until an ecological risk assessment under current guidance was performed.




11-P-0034                                                                                        15
        Region VII generally agreed with your findings and offers the following comments on
the recommendations:

Recommendation 1 – Ensure updated and correct standards for surface water and
groundwater are used to assess conditions at the site and that these corrected standards are
listed in relevant site documents.

Response: Region VII concurs with this recommendation. Region 7 has made arrangements
with the Wheeling Potentially Responsible Party group to perform a review of performance
standards to ensure that the most current and appropriate standards are used in the annual
monitoring program for the Wheeling Disposal site. This review is planned for early 2011 and
will be completed by June 30, 2011.

Recommendation 2 – Require that the reporting limits for all analyses are at or below the
applicable standards to ensure that all contamination above the standards is properly
analyzed by the laboratory.

Response: Region VII concurs with this recommendation. This task will be performed as part of
the performance standards review scheduled for early 2011 and will be completed by June 30,
2011.

Recommendation 3 – Document in an addendum to the 2009 Five-Year Review that iron,
aluminum, and any other compounds exceeding applicable standards are controlled at the
site.

Response: Region VII concurs with this recommendation. An addendum to the 2009 Five-Year
Review will be completed by September 30, 2011.

Recommendation 4 – Complete an ecological risk assessment to determine whether changes
to the remedy are necessary; and, if so, amend or generate new site documents, including
the Record of Decision, to ensure the site is protective of the environment.

Response: Region VII concurs with this recommendation. Region 7 completed a Screening
Level Ecological Risk Assessment (SLERA) for the Wheeling Disposal site on
October 13, 2010. The result of the SLERA is that the remedy for the site is protective of the
environment, and no changes to the remedy are necessary. Therefore, a further ecological risk
assessment is not necessary.

       EPA looks forward to receiving your final report. Should you have any questions
concerning this response, please contact DeAndre Singletary, Chief, Missouri/Kansas Remedial
Branch at (913) 551-7373, or Kathy Finazzo, Regional Audit Follow-Up Coordinator, at (913)
551-7833.




11-P-0034                                                                                        16
                                                                               Appendix D

                                    Distribution

Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Regional Administrator, Region 7
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Director, Office of Superfund Remediation and Technology Innovation, Office of Solid Waste
       and Emergency Response
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Audit Followup Coordinator, Region 7




11-P-0034                                                                                    17
